                   Federal Register / Vol. 64, No. 237 / Friday, December 10, 1999 / Proposed Rules                                                   69217

behalf of the participant plus $1,000 for                   (c) Compliance by a participant with                DEPARTMENT OF HEALTH AND
each unserved month.                                     a service or pyament obligation will be                HUMAN SERVICES
   (b) Participants who sign a                           considered impossible if the Secretary
continuation contract for any year                       determines, on the basis of information                Office of Inspector General
beyond the initial two-year period and                   and documentation as may be required,
fail to complete the one-year period                     that the participant suffers from a                    42 CFR Part 1001
specified are liable for the pro rate                    physical or mental disability result in
amount of any benefits advanced                          the permanent inability of the                         Solicitation of New Safe Harbors and
beyond the period of completed service                   participant to perform the service or                  Special Fraud Alerts
plus an amount equal to the number of                    other activities which would be                        AGENCY: Office of Inspector General
months of obligated service that were                    necessary to comply with the obligation.               (OIG), HHS.
not completed by the participant                            (d) In determining whether to waive
                                                                                                                ACTION: Intent to develop regulations.
multiplied by $1,000.                                    or suspend any or all of the service or
   (c) Payments of any amount owed                       payment obligations of a participant as                SUMMARY: In accordance with section
under paragraph (a) or (b) of this section               imposing an undue hardship and being                   205 of the Health Insurance Portability
shall be made within one year of the                     against equity and good conscience, the                and Accountability Act (HIPAA) of
participant’s breach (or such longer                     Secretary, on the basis of information                 1996, this annual document solicits
period as determined by the Secretary).                  and documentation as may be required,                  proposals and recommendations for
   (d) Terminations will not be                          will consider:                                         developing new and modifying existing
considered a breach of contract in cases                    (1) The participant’s present financial             safe harbor provisions under the Federal
where such terminations are beyond the                   resources and obligations;                             and State health care programs’ anti-
control of the participant as follows:                      (2) The participant’s estimated future              kickback statute, as well as developing
   (1) Terminations for cause or for                     financial resources and obligations;                   new OIG Special Fraud Alerts.
convenience of the Government that are                      (3) The extent to which the
not based upon a breach or default of                    participant has problems of a personal                 DATES: To assure consideration, public
the participant will not be considered a                 nature, such as a physical or mental                   comments must be delivered to the
breach of contract and monetary                          disability or terminal illness in the                  address provided below by no later than
damages will not be assessed.                            immediate family, which so intrude on                  5 p.m. on February 8, 2000.
   (2) The participant transfers to                      the participant’s present an future                    ADDRESSES: Please mail or deliver your
another NICHD intramural laboratory or                   ability to perform as to raise a                       written comments to the following
eligible NICHD-supported extramural                      presumption that the individual will be                address: Office of Inspector General,
site, in which case the participant                      unable to perform the obligation                       Department of Health and Human
remains bound to any and all                             incurred.                                              Services, Attention: OIG–41–N, Room
obligations of the contract.                                                                                    5246, Cohen Building, 330
   (3) The participant transfer to a site                § 68c.14 When can a CIR–LRP payment
                                                                                                                Independence Avenue, SW.,
other than an NICHD intramural                           obligation be discharged in bankruptcy?
                                                                                                                Washington, DC 20201.
laboratory or eligible NICHD-supported                     Any payment obligation incurred                         We do not accept comments by
extramural site, in which case the                       under § 68c.12 may be discharged in                    facsimile (FAX) transmission. In
participant may not be assessed                          bankruptcy under Title 11 of the United                commenting, please refer to file code
monetary penalties if, in the judgment                   States Code only if such discharge is                  OIG–41–N. Comments received timely
of the CIR–LRP Panel, the participant                    granted after the expiration of the five-              will be available for public inspection as
continues to engage in contraception                     year period beginning on the first date
                                                                                                                they are received, generally beginning
and/or infertility research for any                      that payment is required and only if the
                                                                                                                approximately three weeks after
remaining period of obligated service as                 bankruptcy court finds that a
                                                                                                                publication of a document, in Room
set forth in the contract.                               nondischarge of the obligation would be
                                                                                                                5541 of the Office of Inspector General
                                                         unconscionable.
§ 68c.13 Under what circumstances can                                                                           at 330 Independence Avenue, SW.,
the service or payment obligation be                     § 68c.15    Additional conditions.                     Washington, DC, on Monday through
canceled, waived, or suspended?                            In order to protect or conserve Federal              Friday of each week from 8 a.m. to 4:30
  (a) Any obligation of a participant for                funds or to carry out the purposes of                  p.m.
service or payment to the Federal                        section 487B of the Act, or of this part,              FOR FURTHER INFORMATION CONTACT: Joel
Government under this part will be                       the Secretary may impose additional                    Schaer, (202) 619–0089, OIG
canceled upon the death of the                           conditions as a condition of any                       Regulations Officer.
participant.                                             approval, waiver or suspension                         SUPPLEMENTARY INFORMATION:
  (b)(1) The Secretary may waive or                      authorized by this part.
suspend any service or payment                                                                                  I. Background
obligation incurred by the participant                   § 68c.16 What other regulations and
                                                         statutes apply?                                        A. The OIG Safe Harbor Provisions
upon request whenever compliance by
the participant:                                           Several other regulations and statutes                 Section 1128B(b) of the Social
  (i) Is impossible;                                     apply to this part. These include, but are             Security Act (the Act) (42 U.S.C. 1320a–
  (ii) Would involve extreme hardship                    not necessarily limited to:                            7b(b)) provides criminal penalties for
to the participant; or                                      Debt Collection Act of 1982, Public Law             individuals or entities that knowingly
  (iii) If enforcement of the service or                 97–365 (5 U.S.C. 5514).                                and willfully offer, pay, solicit or
payment obligation would be against                         Fair Credit Reporting Act (15 U.S.C. 1681           receive remuneration in order to induce
equity and good conscience.                              et seq.).                                              business reimbursed under the Federal
  (2) The Secretary may approve a                           Federal Debt Collection Procedures Act of           or State health care programs. The
request for a suspension of the service                  1990, Public Law 101–647(28 U.S.C. 1).                 offense is classified as a felony, and is
                                                            Privacy Act of 1974 (5 U.S.C. 552a).
or payment obligations for a period of 1                                                                        punishable by fines of up to $25,000
year. A renewal of this suspension may                   [FR Doc. 99–31986 Filed 12–9–99; 8:45 am]              and imprisonment for up to 5 years. The
also be granted.                                         BILLING CODE 4140–01–M                                 OIG may also impose administrative


   VerDate 29-OCT-99   08:49 Dec 09, 1999   Jkt 190000    PO 00000   Frm 00014    Fmt 4702   Sfmt 4702   E:\FR\FM\10DEP1.XXX   pfrm03   PsN: 10DEP1
69218              Federal Register / Vol. 64, No. 237 / Friday, December 10, 1999 / Proposed Rules

sanctions or exclude violators from the                  practices that the OIG plans to pursue                for fraud and abuse. Only then can the
Federal or State health care programs.                   and prosecute, or to bring civil and                  OIG determine, in consultation with the
   The types of remuneration covered                     administrative action, as appropriate.                Department of Justice, whether it can
specifically include kickbacks, bribes,                  The Special Fraud Alerts also serve as                effectively develop regulatory
and rebates, whether made directly or                    a tool to encourage industry compliance               limitations and controls that will permit
indirectly, overtly or covertly, or in cash              by giving providers an opportunity to                 beneficial and innocuous arrangements
or in kind. In addition, prohibited                      examine their own practices. The OIG                  within a subject area while, at the same
conduct includes not only remuneration                   Special Fraud Alerts are intended for                 time, protecting the Federal health care
intended to induce referrals of patients,                extensive distribution directly to the                programs and their beneficiaries from
but remuneration intended to induce                      health care provider community, as well               abusive practices.
the arranging for or the purchasing,                     as those charged with administering the
leasing or ordering of any good, facility,               Medicare and Medicaid programs.                       II. Solicitation of Additional New
service, or item paid for by Federal or                     In developing these Special Fraud                  Recommendations and Proposals
State health care programs.                              Alerts, the OIG has relied on a number                   In accordance with the requirements
   Since the statute on its face is so                   of sources and has consulted directly                 of section 205 of Public Law 104–191,
broad, concern has been expressed for                    with experts in the subject field,                    the OIG is continuing to study safe
many years that some relatively                          including those within the OIG, other                 harbor and Special Fraud Alert
innocuous commercial arrangements are                    agencies of the Department, other                     proposals submitted in response to the
technically covered by the statute and                   Federal and State agencies, and those in              annual solicitations. Some of those
are, therefore, subject to criminal                      the health care industry. To date, ten                suggestions have been addressed in the
prosecution. As a response to the above                  individual Special Fraud Alerts have                  safe harbor rulemakings recently
concern, the Medicare and Medicaid                       been issued by the OIG and                            published on November 19, 1999 (64 FR
Patient and Program Protection Act of                    subsequently reprinted in the Federal                 63504 and 64 FR 63518) or are already
1987, section 14 of Public Law 100–93,                   Register.1                                            under development. In response to the
specifically required the development                                                                          previously-issued Federal Register
and promulgation of regulations, the so-                 C. Section 205 of Public Law 104–191
                                                                                                               solicitation notices, a status report of the
called ‘‘safe harbor’’ provisions,                         In accordance with the Health                       public comments received for new and
designed to specify various payment                      Insurance Portability and                             modified safe harbors is set forth
and business practices which, although                   Accountability Act of 1996 (Pub. L.                   annually in an appendix to the OIG’s
potentially capable of inducing referrals                104–191), the Department is now                       Semiannual Report covering the period
of business under the Federal and State                  required to provide additional formal                 April through September.2 The OIG is
health care programs, would not be                       guidance regarding the application of                 currently taking the recommendations
treated as criminal offenses under the                   the anti-kickback statute and the safe                listed in the appendix under advisement
anti-kickback statute (section 1128B(b)                  harbor provisions, as well as other OIG               and is not seeking additional public
of the Act; 42 U.S.C. 1320a–7b(b)) and                   health care fraud and abuse sanctions.                comment on those proposals at this
would not serve as a basis for a program                 In addition to accepting and responding               time. Rather, this notice seeks
exclusion under section 1128(b)(7) of                    to requests for advisory opinions from                additional recommendations from
the Act; 42 U.S.C. 1320a–7(b)(7). The                    outside parties regarding the                         affected provider, practitioner, supplier
OIG safe harbor provisions have been                     interpretation and applicability of                   and beneficiary representatives
developed ‘‘to limit the reach of the                    certain statutes relating to the Federal              regarding the development of proposed
statute somewhat by permitting certain                   and State health care programs, section               or modified safe harbor regulations and
non-abusive arrangements, while                          205 of Public Law 104–191 requires the                new Special Fraud Alerts beyond those
encouraging beneficial and innocuous                     Department to develop and publish an                  summarized in the appendix to the OIG
arrangements’’ (56 FR 35952, July 29,                    annual notice in the Federal Register                 Semiannual Report referenced above.
1991). Health care providers and others                  formally soliciting proposals for
may voluntarily seek to comply with                      modifying existing safe harbors to the                Criteria for Modifying and Establishing
these provisions so that they have the                   anti-kickback statute and for developing              Safe Harbor Provisions
assurance that their business practices                  new safe harbors and Special Fraud                       In accordance with the statute, we
are not subject to any enforcement                       Alerts. In accordance with this                       will consider a number of factors in
action under the anti-kickback statute or                requirement, the OIG has published                    reviewing proposals for new or
program exclusion authority.                             notices in the Federal Register on                    modified safe harbor provisions, such as
   To date, the OIG has developed and                    December 31, 1996 (61 FR 69060);                      the extent to which the proposals would
codified in 42 CFR 1001.952 a total of                   December 10, 1997 (62 FR 65049) and                   effect an increase or decrease in—
21 final safe harbors that describe                      December 7, 1998 (63 FR 67486),                          • Access to health care services;
practices that are sheltered from                        soliciting such proposals.                               • The quality of care services;
liability. The OIG is also currently                       In developing safe harbors for a                       • Patient freedom of choice among
developing a proposed safe harbor rule                   criminal statute, the OIG is compelled to             health care providers;
addressing ambulance restocking                          engage in a complete and thorough                        • Competition among health care
arrangements.                                            review of the range of factual                        providers;
B. OIG Special Fraud Alerts                              circumstances that may fall within the                   • The cost to Federal health care
                                                         proposed safe harbor subject area so as               programs;
  In addition, the OIG has also                          to uncover all potential opportunities                   • The potential overutilization of the
periodically issued Special Fraud Alerts
                                                                                                               health care services; and
to give continuing guidance to health                       1 See 59 FR 65372 (December 19, 1994); 60 FR
                                                                                                                  • The ability of health care facilities
care providers with respect to practices                 40847 (August 10, 1995); 61 FR 30623 (June 17,
                                                         1996); 63 FR 20415 (April 24, 1998); and 64 FR        to provide services in medically
the OIG regards as unlawful. These
                                                         1813 (January 12, 1999). The OIG has also issued
Special Fraud Alerts serve to notify the                 three Special Advisory Bulletins—64 FR 37985            2 The OIG Semiannual Report can be accessed
health care industry that the OIG has                    (July 14, 1999); 64 FR 52791 (September 30, 1999);    through the OIG web site at http://www.dhhs.gov/
become aware of certain abusive                          and 64 FR 61353 (November 10, 1999).                  oig/semann/index.htm.



   VerDate 29-OCT-99   08:49 Dec 09, 1999   Jkt 190000    PO 00000   Frm 00015   Fmt 4702   Sfmt 4702   E:\FR\FM\10DEP1.XXX   pfrm03   PsN: 10DEP1
                    Federal Register / Vol. 64, No. 237 / Friday, December 10, 1999 / Proposed Rules                                                    69219

underserved areas or to medically                          Atmospheric Administration (NOAA),                       The Council adopted Amendment 57
underserved populations.                                   Commerce.                                             at its June 1998 meeting. If approved by
   In addition, we will also take into                     ACTION: Notice of availability; request               NMFS, this amendment would prohibit
consideration the existence (or                            for comments.                                         the use of nonpelagic trawl gear in the
nonexistence) of any potential financial                                                                         directed pollock fishery in the BSAI and
benefit to health care professionals or                    SUMMARY: The North Pacific Fishery                    would reduce the bycatch limit of red
providers that may vary based on their                     Management Council (Council) has                      king crab by 3,000 animals. The Council
decisions whether to (1) order a health                    submitted Amendment 57 to the Fishery                 also recommended limits for other
care item or service, or (2) arrange for                   Management Plan (FMP) for the
                                                                                                                 protected species, including halibut, C.
a referral of health care items or services                Groundfish Fishery of the Bering Sea
                                                                                                                 opilio crab, and C. bairdi. NMFS may
to a particular practitioner or provider.                  and Aleutian Islands Area (BSAI). This
                                                                                                                 propose lowering these limits in a future
                                                           amendment would prohibit the use of
Criteria for Developing Special Fraud                      nonpelagic trawl gear in the directed                 proposed rule to implement
Alerts                                                     pollock fishery in the BSAI. Comments                 Amendment 57. Amendment 57 is
                                                           from the public are requested.                        necessary to comply with the
   In determining whether to issue
additional Special Fraud Alerts, we will                                                                         Magnuson-Stevens Act mandate that
                                                           DATES: Comments on Amendment 57
also consider whether, and to what                                                                               Regional Councils must take measures
                                                           must be submitted by February 8, 2000.
extent, those practices that would be                                                                            to reduce bycatch in the Nation’s
                                                           ADDRESSES: Comments on the FMP
identified in new Special Fraud Alerts                                                                           fisheries.
                                                           amendments should be submitted to
may result in any of the consequences                      Sue Salveson, Assistant Regional                         Public comments are being solicited
set forth above, and the volume and                        Administrator, Sustainable Fisheries                  on the amendment through the end of
frequency of the conduct that would be                     Division, Alaska Region, NMFS, P.O.                   the comment period stated in this NOA;
identified in these Special Fraud Alerts.                  Box 21668, Juneau, AK 99802, Attn:                    a proposed rule that would implement
   A detailed explanation of                               Lori Gravel. Comments may also be                     the amendment may be published in the
justifications or empirical data                           hand delivered or sent by courier to the              Federal Register for public comment
supporting the suggestion, and sent to                     Federal Building, 709 West 9th Street,                following NMFS’ evaluation under the
the address indicated above, would                         Juneau, AK. Copies of Amendment 57                    Magnuson-Stevens Act procedures.
prove helpful in our considering and                       and the Environmental Assessment/                     Public comments on the proposed rule
drafting new or modified safe harbor                       Regulatory Impact Review/Initial                      must be received by the end of the
regulations and Special Fraud Alerts.                      Flexibility Analysis prepared for the                 comment period on the amendment in
  Dated: November 29, 1999.                                amendment by the Council and NMFS                     order to be considered in the approval/
June Gibbs Brown,                                          are available from the North Pacific                  disapproval decision on the
Inspector General.                                         Fishery Management Council, 605 West                  amendment. All comments received by
[FR Doc. 99–32025 Filed 12–9–99; 8:45 am]                  4th Ave., Suite 306, Anchorage, AK                    the end of the comment period on the
BILLING CODE 4150–04–P
                                                           99501–2252; telephone 907–271–2809.                   amendment, whether specifically
                                                           Comments will not be accepted if                      directed to the amendment or to the
                                                           submitted via e-mail or Internet.                     proposed rule, will be considered in the
DEPARTMENT OF COMMERCE                                     FOR FURTHER INFORMATION CONTACT:                      approval/disapproval decision;
                                                           Nina Mollett, 907–586–7462 or                         comments received after that date will
National Oceanic and Atmospheric                           nina.mollett@noaa.gov.                                not be considered in the approval/
Administration                                             SUPPLEMENTARY INFORMATION: The                        disapproval decision on the
                                                           Magnuson-Stevens Fishery                              amendment. To be considered,
50 CFR Part 679                                            Conservation and Management Act                       comments must be received by close of
[I.D. 113099B]                                             (Magnuson-Stevens Act) requires that                  business on the last day of the comment
                                                           each Regional Fishery Management                      period specified in this NOA; that does
RIN 0648–AL30                                              Council submit any FMP or FMP                         not mean postmarked or otherwise
                                                           amendment it prepares to NMFS for                     transmitted by that date.
Fisheries of the Exclusive Economic
                                                           review and approval, disapproval, or
Zone Off Alaska; Prohibition of                                                                                    Dated: December 6, 1999.
                                                           partial approval. The Magnuson-Stevens
Nonpelagic Trawl Gear in the Bering                                                                              Bruce C. Morehead,
                                                           Act also requires that NMFS, upon
Sea and Aleutian Islands Directed                                                                                Acting Director, Office of Sustainable
                                                           receiving an FMP, immediately publish
Pollock Fishery                                                                                                  Fisheries, National Marine Fisheries Service.
                                                           a notice in the Federal Register that the
AGENCY: National Marine Fisheries                          FMP or amendment is available for                     [FR Doc. 99–32090 Filed 12–9–99; 8:45 am]
Service (NMFS), National Oceanic and                       public review and comment.                            BILLING CODE 3510–22–F




    VerDate 29-OCT-99    15:56 Dec 09, 1999   Jkt 190000    PO 00000   Frm 00016   Fmt 4702   Sfmt 4702   E:\FR\FM\10DEP1.XXX   pfrm01    PsN: 10DEP1
